       RMC Research Corporation’s Administration of the 

             Reading First Program Contracts



                                 FINAL AUDIT REPORT





                                    ED-OIG/A03F0022 

                                       March 2007 



Our mission is to promote the                           U.S Department of Education
efficiency, effectiveness, and                          Office of Inspector General
integrity of the Department's                           Philadelphia, PA
Programs and Operations.
                        NOTICE

Statements that managerial practices need improvements, as well as
other conclusions and recommendations in this report, represent the
opinions of the Office of Inspector General. Determinations of
corrective action to be taken will be made by the appropriate
Department of Education officials.

In accordance with the Freedom of Information Act (5 U.S.C. § 552),
reports issued by the Office of Inspector General are available to
members of the press and general public to the extent information
contained therein is not subject to exemptions in the Act.
                             UNITED STATES DEPARTMENT OF EDUCATION 

                                  OFFICE OF INSPECTOR GENERAL 





                                                           March 7,2007 

Dr. Everett Barnes 

President 

RMC Research Corporation 

100 Market Street 

Portsmouth, NH 03901 


Dear Dr. Barnes:

Enclosed is our final audit report, Control Number ED-OIG/A03F0022, entitled RMC Research
Corporation's Administration ofthe Reading First Program Contracts. This report incorporates the
comments you provided in response to the draft report. If you have any additional comments or
information that you believe may have a bearing on the resolution ofthis audit, you should send them
directly to the following Education Department officials, who will consider them before taking final
Departmental action on this audit:

                                         Raymond Simon
                                         Deputy Secretary
                                         US Department of Education
                                         400 Maryland Ave SW
                                         Washington, D.C. 20202

                                         Larry Warder
                                        Chief Financial Officer
                                        Office ofthe Chief Financial Officer
                                        US Department of Education
                                        400 Maryland Ave SW
                                        Washington, D.C. 20202

It is the policy of the U. S. Department ofEducation to expedite the resolution of audits by initiating
timely action on the findings and recommendations contained therein. Therefore, receipt of your
comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the Office of
Inspector General are available to members of the press and general public to the extent information
contained therein is not subject to exemptions in the Act

                                                              Sincerely,



                                                              Regional Inspector General for Audit
Enclosure



            Ollr mission is /0 ensure equal access to education and /0 promote educational excellellce throughout the Nation.
                                                                                                                                t
                                                                                                                                i··­

                                                                                                                                t
                                              TABLE OF CONTENTS 


                                                                                                                               Page

EXECUTIVE SUMMARY ...........................................................................................................1


BACKGROUND ............................................................................................................................3


AUDIT RESULTS .........................................................................................................................5


          Finding - RMC Did Not Adequately Address Conflict of Interest Issues.....................5


OTHER MATTERS ....................................................................................................................13


OBJECTIVES, SCOPE, AND METHODOLOGY ..................................................................16


Appendix 1: Technical Assistance Centers and States/Territories Serviced.........................18


Appendix 2: Product Relationships...........................................................................................19


Attachment: RMC Comments

Final Report
ED-OIG/ A03F0022                                                                                  Page 1 of 19


                                     EXECUTIVE SUMMARY 



The U.S. Department of Education (Department) awarded RMC Research Corporation (RMC)
three contracts under the Reading First (RF) program. The first two contracts were to provide
technical assistance (TA) to state educational agencies (SEAs) to assist them in preparing RF
program applications and transitioning to program implementation. Under the third contract,
RMC entered into subcontracts with three regional technical assistance centers (TACs) to assist
in providing TA to SEAs and local educational agencies (LEAs) in the program implementation
phase. We performed an audit of RMC’s administration of these three contracts. The objectives
of our audit were to determine whether: (1) RMC and its subcontractors (the TACs) provided
appropriate assistance to SEAs and LEAs; (2) RMC (including subcontractors and employees)
complied with its own and\or the contracts’ conflict of interest (COI) requirements; and (3) RMC
provided appropriate guidance and information to the TACs.1 Our audit covered the period April
1, 2002, through September 30, 2004.

Our audit disclosed that RMC did not adequately address COI issues. As a result, we identified
two instances in which RMC may have provided inappropriate assistance to the SEAs while
providing TA during the first two contracts. We also found that RMC did not include the
required COI clause in its subcontracts and consulting agreements, did not adequately vet TA
providers for reading product relationships and affiliations, and did not have formal COI policies
and procedures (including the subcontractors). Except as noted above, our audit disclosed that
RMC generally provided appropriate guidance and information to the TACs during the third RF
contract.

In addition, we found that the referral of states to the Oregon Reading First Center (ORFC)2 and
the Florida Center for Reading Research (FCRR)3 reading program reviews, and the lack of TAC
websites may have led to some states’ perception that there was an approved list of reading
programs for use in the Reading First program. We also found that consultant agreements were
not obtained from all consultants and some agreements were not signed. These issues are
discussed in the Other Matters section of the report.

We recommend that the Assistant Secretary for Elementary and Secondary Education, in
collaboration with the Chief Financial Officer, require RMC to work with the Department of
Education to:

        • 	 Develop and implement formal COI policies and procedures for use in the current
            Reading First contract and any other current or future Department contracts that, at a
            minimum, should address the following:
               a) Vetting employees for the appearance of COI, including bias and impaired
               objectivity;

1
  This objective only relates to the third contract awarded to RMC by the Department. 

2
  The ORFC is a research project of the University of Oregon that provides support and professional development to

Oregon schools relating to the goals of RF. 

3
  The FCRR is a Florida State University center that conducts and disseminates information on reading research and

provides TA to Florida schools. 

Final Report
ED-OIG/ A03F0022                                                                      Page 2 of 19
                   b) Procedures for dealing with disclosed COI information;
                   c) Advisories concerning COI with National Center and/or TAC products
                       and services; and
                   d) Requirements for addressing COI, including bias and impaired objectivity,
                       with subcontractors and consultants.
           • 	 Determine and mitigate or neutralize any instances of bias or impaired objectivity
               that exist for all TA providers on the National Center contract.
           • 	 Develop and implement a COI certification form for all TA providers.

RMC concurred in principle with the finding and fully concurred with the recommendations.
RMC acknowledged that it was remiss in not being more explicit in highlighting the required
organizational COI clause in its subcontracts. RMC also acknowledged that it did not emphasize
concerns related to the appearance of conflict of interest, bias, or lack of objectivity when vetting
staff and consultants. In addition, RMC acknowledged that it, along with its subcontractors, did
not have COI policies and procedures. RMC stated it has begun to take corrective action to
address the finding issues, such as developing an interim “COI Certification Form.” RMC stated
it has also requested a meeting with the Department to discuss the issues and recommendations
raised in the report. RMC’s comments are summarized at the end of the finding. The full text of
RMC’s comments is included as an Attachment to the report.
Final Report
ED-OIG/ A03F0022                                                                                   Page 3 of 19



                                             BACKGROUND 



The Elementary and Secondary Education Act of 1965 (ESEA), as amended by the No Child
Left Behind Act of 2001 (P.L. 107-110), signed into law on January 8, 2002, established the RF
program. The RF program was to increase the assistance to SEAs and LEAs to ensure that every
student can read at grade level or above no later than the end of grade three. According to the
Department’s Guidance for the Reading First Program, dated April 2002, the program was
designed to select, implement, and provide professional development for teachers using
scientifically based reading programs and to ensure accountability through ongoing, valid, and
reliable screening, diagnostic, and classroom-based assessments. An SEA that desired to receive
a RF grant must have submitted an application to the Department, detailing how it planned to
administer its RF program. After the state’s RF plan was approved, the state was awarded a RF
grant.

Title I, Part B, Subpart 1, of the ESEA, served to provide assistance to SEAs and LEAs in (1)
establishing reading programs; (2) preparing teachers; (3) selecting or administering reading
assessments; and (4) selecting or developing instructional materials, programs learning systems,
and strategies. In an effort to accomplish the purposes of RF, the Department awarded three
contracts.4 The first contract, entitled Technical Assistance for State Applications for Reading
First, had a performance period of April 8, 2002, through September 30, 2003, (later extended to
September 30, 2004) at an award cost of $2,294,174. The purpose of the contract was to provide
TA to SEAs in developing their RF plans and preparing high quality applications for RF funding,
including providing sustained assistance to individual SEAs until their applications were
approved.

The second contract, entitled Reading First Transitional Technical Assistance to State
Educational Agencies (Transitional Assistance), had a performance period of June 17, 2003,
through June 16, 2005, at an award cost of $1,477,228. The purpose of the contract was to
ensure continuity of TA services to SEAs between the short-term state grant application-related
TA and the larger TA structures that were to be developed in order to support program
implementation.

The third contract, entitled National Center for Reading First Technical Assistance (National
Center), had a performance period of September 30, 2003, through September 29, 2008, at an
award cost of $36,771,494. The purpose of the contract was to provide support in the planning
and implementation of technical support, research, and capacity building activities, and the
establishment of three regional centers located in the western, central, and eastern regions of the
United States. Services to be provided by the regional centers included (1) on-going consultative
services; (2) tailored professional development and production of publications; (3) high quality
research centers on scientifically based research; (4) assistance in identifying scientifically based
instructional assessments, programs, and materials; (5) SEA and LEA internal capacity building;

4
  During our audit, the U.S. Government Accountability Office (GAO) was conducting a 50 state survey of RF
directors as part of its review of the RF Program. The survey included questions regarding the technical assistance
provided under these contracts. The results were scheduled to be reported in March 2007.
Final Report
ED-OIG/ A03F0022                                                                                  Page 4 of 19
(6) facilitation of pre-service development; and (7) preparation and dissemination of resource
materials.

RMC won the bid for each of the above contracts. Primarily, employees of RMC executed the
first and second contracts, while the National Center contract called for regional subcontractors
across the United States to facilitate its execution. RMC collaborated with officials from three
universities (University of Oregon, University of Texas at Austin, and Florida State University)
to develop the proposal used to bid on the contract. In the proposal, RMC was the prime
contractor and each university was a subcontractor to RMC. Each university proposed an
individual to be the Director of the TAC. RMC was the national coordinator for the RF TA,
overseeing the activities of the three regional centers that delivered TA to their assigned states.5
The University of Oregon, under its Institute for the Development of Educational Achievement
(IDEA), implemented the Western Region Reading First Technical Assistance Center (Western
TAC); the University of Texas, under the Texas Center for Reading and Language Arts (Vaughn
Gross Center), implemented the Central Region Reading First Technical Assistance Center
(Central TAC); and Florida State University, under the FCRR, implemented the Eastern Region
Reading First Technical Assistance Center (Eastern TAC). RMC and the TACs utilized internal
employees and contracted with outside consultants to provide the TA [TA providers].

Each of the above universities was already involved in providing in-state reading assistance prior
to becoming subcontractors to RMC. Specifically, the University of Oregon’s IDEA had already
formed the ORFC, which reviewed and assessed reading programs for Oregon schools, using “A
Consumer’s Guide to Evaluating a Core Reading Program Grades K-3: A Critical Elements
Analysis” (Consumer’s Guide).6 The Director of the Western TAC was also the Director of
IDEA and a co-author of the Consumer’s Guide. The ORFC and the Western TAC were IDEA
projects. The University of Texas’s Vaughn Gross Center developed the “3-Tier Reading
Model,” an instructional model used by Texas to teach reading. The Central TAC was a TA
project of the Vaughn Gross Center and the Director of the Vaughn Gross Center became the
Director of the Central TAC. Finally, Florida State University’s FCRR conducted reviews of
both comprehensive7 and supplemental/intervention8 reading programs for Florida’s Reading
First program. The Eastern TAC was a TA project of the FCRR, and the Director of the FCRR
became the Director of the Eastern TAC.

RMC served as the coordinator and facilitator of the National Center contract, acting as the
liaison between the Department and the TACs. According to RMC, the Department mainly
interacted with RMC and the same held true for the TACs. The TA provided by RMC and its
TACs was predicated on the approved state Reading First applications. According to RMC, this
TA was intended to supplement the states’ Reading First plans. States wishing to receive TA
had to initiate contact with RMC or the TACs. If needed, the request would be referred to the
appropriate TAC, and then subsequently assigned to a TA provider. Before an individual

5
  See Appendix 1 for a listing of states served by each TAC. 

6
  The Consumer’s Guide was developed in the late 1990s by the University of Oregon to help assist schools in the 

state of Oregon in selecting effective reading programs. 

7
  A comprehensive program is a base reading program designed to provide instruction on the essential areas of 

reading for the majority of students. 

8
  A supplemental program is a program designed to support and extend the critical elements of a comprehensive 

reading program. An intervention program provides more explicit and systematic instruction to children who

demonstrate reading difficulty and are performing below grade level.

Final Report
ED-OIG/ A03F0022                                                                    Page 5 of 19
became a TA provider, he or she had to be approved by RMC, and then by the Department. The
TA provided was recorded on Client Contact Logs for documentation purposes. The Client
Contact Logs included who, when, and what kind of assistance was provided. The logs were
forwarded to RMC monthly. Included in the TA offered by the TACs was a process of
reviewing reading programs. This process was only performed to a small degree; the Eastern
TAC reviewed nine reading programs (eight of which were supplemental or intervention), and
the Central and Western TACs each reviewed one reading program (comprehensive and
supplemental, respectively). These reviews were done only at the request of a state. The
reviewer used the criteria for review and selection of a program that was indicated in a state’s
approved RF plan. The results of the reviews were provided only to the requesting state. In
August 2005, the Department directed RMC and the TACs to discontinue reviewing programs to
concentrate on assisting the states in implementing their Reading First programs.




                                               AUDIT RESULTS 




We found that RMC did not adequately address conflict of interest issues when providing TA to
the SEAs. We identified two instances where RMC may have inappropriately promoted an
assessment instrument to SEAs while providing TA during the first two RF contracts. We also
found that RMC did not include the required COI clause in its subcontracts and consulting
agreements, did not adequately vet TA providers for reading product relationships and
affiliations, and did not have formal COI policies and procedures. Except as noted above, our
audit disclosed that RMC generally provided appropriate guidance and information to the TACs
during the third RF contract. In addition, we found that the referral of states to the ORFC and
the FCRR reading program reviews and the lack of TAC websites may have led to some states’
perception that there was an approved list of reading programs for use in the Reading First
program.9 We also found that consultant agreements were not obtained from all consultants and
some agreements were not signed.10

RMC concurred in principle with the finding and fully concurred with the recommendations.
RMC stated it has begun to take corrective actions to address the finding issues. RMC’s
comments are summarized at the end of the finding. The full text of RMC’s comments is
included as an Attachment to the report.


Finding - RMC Did Not Adequately Address Conflict of Interest Issues

RMC did not adequately address COI issues on the three Reading First contracts. Specifically,
RMC did not ensure that the required organizational COI clause was included in the National
Center subcontracts with the three universities, nor was it included in the agreements/contracts
with the TA providers. Additionally, RMC did not adequately vet TA providers for potential

9
    See the Other Matters section of the report.
10
     See the Other Matters section of the report.
Final Report
ED-OIG/ A03F0022                                                                                      Page 6 of 19
bias or lack of objectivity (forms of COI). We also found instances where TA providers may
have been promoting an assessment instrument while providing TA to two states. RMC did not
have a formal process to address COI issues.

Absence of the COI Clause in Subcontracts and Consulting Agreements

RMC did not include the required organizational COI clause, contained in the National Center
master contract between RMC and the Department, in its subcontracts with the three TACs or the
consulting agreements with the TA providers used on the Reading First contracts.

The clause served as an acknowledgement by the contractor that (1) it did not have any COI
issues, as defined in the FAR,11 or that any issues were disclosed, and (2) if an actual or potential
organizational COI was discovered after award, the contractor would make a full disclosure. The
COI clause also required that the contractor agree to insert in any subcontract or consultant
agreement provisions that conformed substantially to the language of this clause. Specifically,
the clause stated,

         (A) The Contractor warrants that, to the best of the Contractor’s knowledge
         and belief, there are no relevant facts or circumstances which could give rise
         to an organizational conflict of interest, as defined in FAR Subpart 9.5, or that
         the Contractor has disclosed all such relevant information.
         (B) The Contractor agrees that if an actual or potential organizational conflict
         of interest is discovered after award, the Contractor will make a full disclosure
         in writing to the Contracting Officer. This disclosure shall include a
         description of actions, which the Contractor has taken or proposes to take,
         after consultation with the Contracting Officer, to avoid, mitigate, or
         neutralize the actual or potential conflict….
          (D) The Contractor further agrees to insert in any subcontract or consultant
         agreement hereunder, provisions which shall conform substantially to the
         language of this clause, including this paragraph (D).

We found that the subcontracts stated that the TACs must abide by the master contract between
RMC and the Department, but they did not specifically contain the COI clause as required. As a
result, the three TACs were not aware of the COI clause and may not have complied with its
requirements.

In addition, the consulting agreements used by RMC did not contain the required clause. For the
first two Reading First contracts, we examined 24 consulting agreements (14 for the first contract
and 10 for the second contract) between RMC and the TA providers who were not RMC
employees. None of the 24 consulting agreements contained the required clause. As a result, the
11
   Federal Acquisition Regulation (FAR) Subpart 9.5, 9.505 General Rules states, “The general rules in 9.505-1
through 9.505-4 prescribe limitations on contracting as the means of avoiding, neutralizing, or mitigating
organizational conflicts of interest that might otherwise exist in the stated situations…Each individual contracting
situation should be examined on the basis of its particular facts and the nature of the proposed contract. The
exercise of common sense, good judgment, and sound discretion is required in both the decision on whether a
significant potential conflict exists and, if it does, the development of an appropriate means for resolving it. The two
underlying principles are---
     (a) Preventing the existence of conflicting roles that might bias a contractor’s judgment; and
     (b) Preventing unfair competitive advantage.”
Final Report
ED-OIG/ A03F0022                                                                                   Page 7 of 19
TA providers were not made aware of the required clause, and they may not have disclosed any
actual or potential COI issues.

Furthermore, because the clause was not included in the subcontracts with the TACs, the TACs
were not aware that the clause was required to be included in the employment and consulting
agreements. We reviewed the consulting agreements and employment contracts submitted to us
by the Eastern TAC (24), Central TAC (21) and Western TAC (16). None of the employment
contracts and consulting agreements we reviewed contained the required clause. Therefore, the
TAC’s TA providers may not have disclosed any actual or potential COI issues relating to
publisher affiliations or authorships.

Technical Assistance Providers Were Not Adequately Vetted for Bias or Impaired
Objectivity

In addition, RMC did not adequately vet TA providers’ resumes for potential bias or impaired
objectivity. We found that RMC did not consider whether the proposed TA providers had
affiliations with reading related products or publishers of reading programs (including consulting
agreements or publishing contracts), or were authors of reading programs or materials. RMC
only vetted the TA providers’ résumés to determine whether the proposed individuals had
sufficient expertise in scientifically based reading research (SBRR),12 and that the individuals
were not receiving dual compensation from Reading First funds for other related work.
Although the Department had final approval of who could be a TA provider, RMC had the
responsibility to ensure that the TA providers for each of the Reading First contracts were vetted
for bias and impaired objectivity.

We noted that appearances of bias or impaired objectivity existed between current and former
Reading First personnel at the three TACs. For example, the current and former Directors of the
Western TAC had associations with Prentice Hall, which included published reading materials13
that these individuals authored in 2003 and 2005. In addition, the current Director was an
advisor to the Department on its implementation of the RF statute. The former Director was also
a co-author of the Consumer’s Guide, the team leader of the Assessment Committee that
evaluated reading assessment instruments, and a presenter at the Department’s Reading
Leadership Academies.

The Central TAC’s former Principal Investigator was a paid consultant to Voyager (kindergarten
through third grade) prior to her work at the TAC, and she remained a paid consultant (grades 4­
8) during her tenure with the TAC.14 She also was developing a reading series with Pearson




12
   SBRR is defined as research that applies rigorous, systematic, and objective procedures to obtain valid knowledge
relevant to reading development, reading instruction, and reading difficulties; and includes research that- employs
systematic, empirical methods that draw on observation or experiment; involves rigorous data analyses that are
adequate to test the stated hypotheses and justify the general conclusions drawn; relies on measurements or
observational methods that provide valid data across evaluators and observers and across multiple measurements
and observations; and has been accepted by a peer-reviewed journal or approved by a panel of independent experts
through a comparably rigorous, objective, and scientific review.
13
   The reading materials are college textbooks that use the direct instruction approach to teaching reading.
14
   We clarified this information with the former Principal Investigator in late February 2007.
Final Report
ED-OIG/ A03F0022                                                                                  Page 8 of 19
Scott Foresman, scheduled to be published in 2006. Additionally, the former Principal
Investigator advised the Department on its selection of members for the expert review panel.15

Similarly, the Eastern TAC’s current Director has a current publishing contract for reading
intervention materials with the publisher SRA/McGraw-Hill.16 The Director was a member of
the Assessment Committee, the author of three assessment instruments, and a presenter at one of
the Department’s Reading Leadership Academies.

These appearances of bias and impaired objectivity contributed to the allegations surrounding the
administration of the Reading First program, namely that some individuals may have been
promoting or pushing the reading products they were affiliated with and had exerted influence
over the products that were being selected by SEAs and LEAs. This perception prompted the
Department to send a letter to RMC, in October 2005, stating:

        …it is essential that the National Center avoid all conflicts of interests among
        employees, subcontractors, and consultants who may have connections to
        particular instructional programs or materials used under Reading First…it is
        important that steps are taken to avoid the appearance of conflicts of interest
        in this area. Individuals associated with the National Center or the three
        regional centers must recuse themselves from participating in TA activities
        that appear to benefit commercial entities with whom they are personally
        connected.

Although the directors of the TACs disclosed some of these relationships to RMC in 2004,17
RMC did not appear to fully consider whether these relationships could be perceived to cause
bias or impaired objectivity. Based on our review of the information obtained, this information
was not provided to the Department. Undisclosed appearances of bias or impaired objectivity
can damage the integrity of the TA provided, and the integrity and reputation of RMC, its
subcontractors, and the Department.

Possible Inappropriate Promotion of an Assessment Instrument

Our review identified two instances of possible inappropriate promotion of an assessment
instrument. Specifically, we found that a consultant, who worked as a TA provider on the first
two contracts providing assistance to states on their Reading First applications, was a certified
DIBELS18 trainer. This individual appeared to be promoting DIBELS to two states while


15
   The expert review panel was a group of individuals who were selected by the Department, the National Institute
for Literacy, the National Research Council of the National Academy of Sciences, and the National Institute of
Child Health and Human Development to evaluate states’ RF applications. OIG Evaluations and Inspections report
“The Reading First Program’s Grant Application Process," ED-OIG/I13F0017, issued in September 2006, discusses
the expert review panel selection process.
16
   See Appendix 2 for an additional listing of product relationships of National Center personnel.
17
   In February 2004, RMC requested a list of all pre-existing contracts that might be related to the Reading First
work of the three TACs, including information on all reading related contracts or agreements currently held. This
information was to be provided to assess potential conflicts of interest, and was requested as part of the contract
award negotiations with the Department for the National Center contract.
18
   DIBELS is a progress monitoring reading assessment instrument that was originally developed in 1988 by the
University of Oregon. It was revised in 2002 and published by Sopris West.
Final Report
ED-OIG/ A03F0022                                                                                Page 9 of 19
providing TA.19 In a string of emails, in August 2003, between the Reading First Director
(former) and RMC, the Director stated, “several comments have made way to me from different
sources indicating that he’s …overly focused on products he is linked with…You know, one of
the knocks is that he overly pushes DIBELS.” The Director told us that an official from a
western state contacted him directly and stated that she felt that she was being pressured by this
TA provider to select DIBELS as the state’s Reading First assessment instrument. The official
also expressed the same concern to the Office of Inspector General (OIG). In another instance,
Reading First officials from an eastern state who received TA from the same group of
consultants stated that the TA providers told them the state should use DIBELS as its assessment
instrument; they felt that DIBELS was being pushed on them. The TA providers should not have
provided advice that would have given the impression that they were promoting any assessment
instrument. The two instances raise the question whether the TA provided these two states was
appropriate. These situations may have been avoided had RMC considered the states’ needs in
conjunction with the relationships or affiliations of the TA providers before assigning them to a
state.

There is no federal requirement that contractors, subcontractors, or consultants be vetted for bias
or impaired objectivity20 and the RF contracts did not require RMC to vet for this. However, a
prudent business practice would have been for RMC to vet the TA providers’ resumes to ensure
that any potential appearances of bias or impaired objectivity were disclosed and considered in
advance of hiring an individual as a TA provider. If the potential for bias or impaired objectivity
was discovered, RMC should have ensured it was mitigated, neutralized, or properly disclosed.

We also found that RMC had no formal COI policies and procedures in place. Additionally,
RMC’s subcontractors did not have COI policies and procedures pertaining to publisher and
reading product affiliations or authorships in place either. Specifically, the Western TAC had no
COI policies and procedures. The Eastern TAC and Central TAC had COI policies and
procedures, but they only pertained to dual compensation and outside employment. While RMC
is not required by law to have COI policies and procedures in place, doing so would be a prudent
business practice, especially due to the type and nature of the TA provided under this contract.
Furthermore, establishing policies and procedures is part of management’s internal control
responsibility. By not having policies and procedures, RMC and its subcontractors did not
adequately address the types of COI issues discussed above and possible instances of COI may
not have been disclosed.

Since 2002 there were perceptions of bias or impaired objectivity related to using TA providers
connected to reading programs and/or products. RMC was aware of these issues when it
requested COI information from the employees of the three TACs. We found that RMC did not
adequately address the issues. Specifically, during a meeting in 2004, the National Center
(RMC) suggested to the Department that a set of advisories be created for COI issues. These

19
   Working with the DIBELS trainer on this three-person TA team was an RMC employee and a consultant who was
closely associated with the University of Oregon, where DIBELS was developed.
20
   Since all TA providers were considered contractors of the Department and not federal employees, no COI federal
law or regulation was violated because the criminal conflict of interest provisions and the Standards of Ethical
Conduct apply only to federal employees. The organizational conflict of interest provisions of the FAR are not
designed to reach the type of dual roles, such as being a consultant and a DIBELS trainer, which the TA providers
had undertaken.
Final Report
ED-OIG/ A03F0022                                                                               Page 10 of 19
advisories were to address COI issues when they arose since the organizations that were serving
as the TACs and individuals within the TACs developed products or offered services relating to
SBRR prior to the National Center’s creation. RMC wanted to ensure that no National Center
materials developed or used for Reading First suggested or appeared to suggest a preference for
products/services previously developed/offered by the universities or TAC personnel. RMC also
did not want to appear to be promoting or giving any unfair advantage to the products developed
by National Center in the TA services it delivered. Although the Department agreed with the
suggestion, both RMC and the Department found the issues too complicated to lend themselves
to advisories, and instead directed the TACs to bring COI questions to RMC when they arose.

Recommendations

We recommend that the Assistant Secretary for the Office of Elementary and Secondary
Education, in collaboration with the Chief Financial Officer, require RMC to work with the
Department of Education to:

1.1 	   Develop and implement formal COI policies and procedures for use in the current
        Reading First contract and any other current or future Department contracts that, at a
        minimum, should address the following:
                     a) Vetting employees for the appearance of COI, including bias and impaired
                        objectivity;
                     b) Procedures for dealing with disclosed COI information;
                     c) Advisories concerning COI with National Center and/or TAC products
                        and services; and
                     d) Requirements for addressing COI, including bias and impaired objectivity,
                        with subcontractors and consultants.
1.2 	   Determine and mitigate or neutralize any instances of bias or impaired objectivity that
        exist for all TA providers on the National Center contract.
1.3 	   Develop and implement a COI certification form for all TA providers.


RMC Comments

Absence of the COI Clause in Subcontracts and Consulting Agreements
RMC acknowledged that it was remiss in not being more explicit in highlighting the required
organizational COI clause in its subcontracts with the three universities serving as subcontractors
to the National Center. RMC stated that it provided the Office of Grants and Contracts within
each of the three subcontractor universities a complete copy of the Master Contract it had with
the Department, which included the organizational COI clause requirement. RMC stated it has
taken action to address this issue, including, amending the subcontracts to include the COI
clause, training all staff on COI, and securing signed interim COI Disclosure Statements from all
staff and consultants.21




21
   In February 2007 RMC provided the Department with letters to the TAC universities amending the subcontracts
by adding the absent COI clause, the current subcontracts, and signed COI Disclosure Statements from all RMC
staff, TAC employees, and consultants working on the current RF contract.
Final Report
ED-OIG/ A03F0022                                                                   Page 11 of 19
Technical Assistance Providers Were Not Adequately Vetted for Bias and Impaired Objectivity
RMC acknowledged that as the prime contractor it also had a responsibility to vet resumes
before passing them on to the Department to protect the reputation and integrity of the Reading
First program and RMC. RMC agreed that in its vetting of staff and consultants it erred on the
side of emphasizing depth of knowledge, extensive experience, and nationally recognized
expertise in SBRR and Reading First program requirements over concerns related to the
appearance of conflict of interest, bias, or lack of objectivity.

RMC stated that some of the statements made about the current and former TAC Directors may
not be accurate or may need clarification. Specifically, the textbooks authored by the current
Western TAC Director were textbooks that could not be used in the Reading First program.
Also, that the former Central TAC Principal Investigator’s consultancy to Voyager was for
grades 4-8 (Reading First is a K-3 program).

RMC also stated that all the activities of the former and current TAC Directors presented in this
portion of the report were known to the Department at the time the National Center contract was
awarded. RMC understood that the Department vetted and approved the resumes of staff and
consultants, and never informed RMC about any specific concerns of conflict of interest, bias, or
lack of objectivity regarding any of these individuals. Had they done so, RMC would have
worked with the Department and with the individuals and organizations involved to correct or
mitigate the situation.

RMC explained that in 2004, the Department asked RMC to compile a list of all contracts and
consulting agreements (government and private sector agencies) that the National Center staff
was currently involved in. RMC collected this information and informed the Department that it
was available. It stated that the Department told RMC to put it on file for future reference if
needed. When this information was examined, RMC felt there was no overt COI.

OIG Response

Even though some of the reading products that the TAC Directors were associated with may
have been published after the RF contracts began, or were not used for RF, these individuals had
affiliations with reading related products or publishers of reading programs. These affiliations
presented appearances of bias or impaired objectivity, which contributed to the perception that
individuals were promoting products and exerting influence over SEA and LEA reading product
selections.

We added a footnote to the report to note the type of reading products authored by the current
Western TAC Director. The Central TAC’s former Principal Investigator’s work with Voyager
for grades 4-8 was during her tenure with the TAC. Prior to her work at the Central TAC, she
was a Voyager consultant for kindergarten through third grade reading materials. We clarified
this information in the report.

Based on our interviews with the RF PO staff, the Department did not review the list of contracts
and consulting agreements for the National Center staff.
Final Report
ED-OIG/ A03F0022                                                                      Page 12 of 19
RMC Comments

Possible Inappropriate Promotion of an Assessment Instrument
RMC explained that neither the western nor eastern state ever brought this issue to the direct
attention of the Principal Investigator/Project Director of the National Center. When the
Department’s former Director of Reading First brought the complaint of the western state to its
attention, RMC stated it acted upon the complaint immediately and no additional complaints
were received. RMC stated that the technical assistance provided may have been interpreted by
the client as “promoting or pushing” a particular assessment (DIBELS). These were the only
two complaints RMC was informed of where the client perceived they were being pressured.

RMC agreed that TA providers always have to be cognizant that the advice they provide, and the
way in which it is provided, never gives the client the impression that they are promoting a
specific assessment.

RMC stated that it had no formal COI policies and procedures in place because RMC does not
have relationships with publishers, does not develop or publish texts, assessments or programs,
and does not collect royalties. As a result of this audit, RMC stated it has taken steps to establish
COI policies and procedures and engaged staff in training and dialogue about COI issues.

RMC agreed that none of the subcontractors had COI policies and procedures pertaining to
publisher and reading related product affiliations or authorships in place, but it stated that the
university where the Western TAC is based did have a longstanding COI policy in place that is
similar to those at the universities where the Eastern and Central TACs are based.

OIG Response

We agree that the technical assistance provided may have been interpreted by the state as
“promoting or pushing” a particular assessment instrument, which is why adequate vetting for
potential appearances of bias or lack of objectivity is important.

While RMC may not have relationships with publishers and does not develop or publish
textbooks, assessments, or programs, it does have staff, consultants, and subcontractors that do.
RMC should have policies and procedures to address COI issues for these individuals.

During our audit, we requested COI policy information from all of the TACs. We were provided
with the University of Oregon’s Notice of Appointment form. It did not contain a COI policy.
We were not informed of, or presented with any COI policy information while conducting
fieldwork at the Western TAC.

Recommendations

RMC Comments

RMC concurred with the recommendations. In February 2007, RMC stated it requested a
meeting with the Assistant Secretary for the Office of Elementary and Secondary Education to
discuss the issues raised in the report and its recommendations, and to develop a plan and
timeline for addressing them.
Final Report
ED-OIG/ A03F0022                                                                                Page 13 of 19

In response to Recommendation 1.3, RMC stated it has developed an interim “COI Certification
Form,” which has been signed by all staff, subcontractors and consultants currently working on
the National Center contract.




                                         OTHER MATTERS 



Perception of an Approved Department List of Reading Programs
The referral of states to the ORFC and the FCRR reading program reviews and the lack of TAC
websites may have led to some states’ perception that there was an approved list of reading
programs for use in the Reading First program.22

The TA providers referred SEAs seeking guidance on the selection of a reading program to the
list of ORFC and FCRR program reviews.23 These reviews were conducted for schools in the
states of Oregon and Florida and aligned to fit the methods and criteria these states determined
would be used to choose a scientifically based reading program. An FCRR official told us that it
was disconcerting that the FCRR reports were referred to other SEAs since the reviews were
done at the request of, and for use by, Florida school districts. The FCRR used guidelines that it
had developed, while the ORFC used the Consumer’s Guide for its program reviews. We were
informed that the states were referred to these reviews, among others, because they did not know
how to review the programs or did not have the resources to do so. However, both of these
reviews were done for schools in the respective states only. Both websites included a disclaimer
stating that the reviews were not an approval, requirement, or recommendation of any reading
program,24 but it appears that the disclaimers were ignored. Referring SEAs to the ORFC and
FCRR program reviews appears to have contributed to the misconception that these reading
programs were on a list of programs “approved” by the Department. Since each state’s Reading
First program plan was specific to that state and what the state was trying to accomplish, we
suggest that RMC instruct TA providers to refrain from referring one state to another state’s
work.

In addition, the lack of separate TAC websites may have led to the perception of an approved list
of reading programs. The webpages that represent the three TACs on the Internet were not
separate from the websites of the centers at the universities that housed them. For example, the
University of Oregon website contained a link to the IDEA website and to the ORFC, which
listed the program reviews that it performed. The IDEA website also contained a link to the
Western TAC. Similarly the FCRR website contained a link to the webpage representing the
Eastern TAC, and the Vaughn Gross Center website contained a link to the webpage
representing the Central TAC. By having the webpages that represent the TACs linked to these
websites, and given that the TACs were subcontractors of the Department, the work of the

22
   This issue is also discussed in the OIG report “The Department’s Administration of Selected Aspects of the

Reading First Program,” ED-OIG/A03G0006, issued in February 2007. 

23
   The ORFC reviews were performed in 2002, and the FCRR reviews were performed in 2003. 

24
   We reviewed the websites beginning in August 2005, and the disclaimers were present. We do not know when

the disclaimers were placed on the websites. 

Final Report
ED-OIG/ A03F0022                                                                 Page 14 of 19
ORFC, FCRR, and the Vaughn Gross Center (centers housing the TACs) could have been
misinterpreted as products completed by the TACs and approved by the Department. This
misinterpretation appeared to have contributed to the erroneous perception that the TACs
performed these reading program reviews. Similarly, there appeared to be a perception that the
Central TAC was promoting the 3-tier reading model developed under the Vaughn Gross Center.

We also noted that there might have been some confusion about other reading related
information contained on the websites that housed the links to the webpages representing the
TACs. The assessment instrument reviews performed by IDEA may have been perceived as a
function of the Western TAC. Similarly, the DIBELS link on the IDEA website may have been
perceived as an endorsement of DIBELS by the Western TAC. This information was not part of
the Western TAC nor was it contained on a webpage for the Western TAC. In fact, the Western
TAC did not have a webpage. The link for this TAC leads users directly to the National Center
website. It appears that RMC did not foresee the importance of the TACs being seen as
independent from the universities and research centers that house them, and did not require the
regional TACs to have separate websites. We suggest that RMC consider developing separate
websites for the three TACs.

RMC Comments

RMC agreed that program reviews available from a number of sources might have given some
SEAs the misconception that a list of approved reading programs existed. RMC stated that the
National Center did not “refer SEAs seeking guidance on the selection of a reading program to
the list of ORFC and FCRR program reviews.” SEAs were referred to these sites by the National
Center to see the process, protocols, and rubrics that were used. RMC will instruct TA providers
to exercise “extreme caution” in referring one state to another state’s work.

RMC explained that the National Center and the regional TACs were prohibited by the
Department from creating websites for the TACs. The webpages referred were not developed
and maintained by the TACs. These were not TAC webpages, but rather a page on a university
website that included information about the TAC.

OIG Response

We do not state SEAs were referred to the program reviews done by the ORFC and the FCRR to
select a program from these lists. SEAs seeking guidance on how to select a program were
referred to these program reviews and may not have understood how to use the reviews, which
contributed to the misconception of an approved list.

We agree that the webpages were not developed or maintained by the TAC. As stated above, the
universities websites linked to webpages that represented the TACs. We have revised the
wording in this section to make this point clearer.

Unsigned and Missing Consultant Agreements
RMC hired 27 consultants to provide TA for the three Reading First contracts. We found that
RMC could not provide consulting agreements for 3 of the 27 consultants. For 2 of the 3
consultants, RMC could only provide the expense vouchers submitted by the consultants.
Final Report
ED-OIG/ A03F0022                                                                    Page 15 of 19
We also noted that required signatures were missing on some of the agreements. Specifically, 3
of 27 consultants did not sign their agreements, 2 agreements were not signed by RMC, and 3
agreements were not signed by either the consultant or RMC. Also, 6 of the 21 consulting
agreements provided by the Central TAC were not signed and dated by the consultant. Another
consulting agreement was signed but not dated.

Consulting agreements should be maintained and signed by all parties to show that all parties
were aware of the terms and conditions of employment. We suggest that RMC ensure that
consulting agreements are obtained for all current and future consultants, and are properly
executed (signed and dated) by all parties.

RMC Response

RMC accepted responsibility for these errors and stated that it has tightened up its procedures for
securing and filing these records.
Final Report
ED-OIG/ A03F0022                                                                              Page 16 of 19


                    OBJECTIVES, SCOPE, AND METHODOLOGY 



The audit objectives were to determine whether: (1) RMC and its subcontractors (regional
technical assistance centers) provided appropriate assistance to SEAs and LEAs; (2) RMC and
its subcontractors and employees complied with their own and\or the contracts’ COI
requirements; and (3) RMC provided appropriate guidance and information to the regional TACs
for the period April 1, 2002, through September 30, 2004.

To achieve our objectives, we reviewed the contracts between RMC and the Department, the
subcontracts between RMC and the three regional universities, the consulting agreements
between RMC and consultants, and the consulting agreements between the universities and their
consultants. In addition, we reviewed RMC’s technical and business proposals (including cost
and technical questions posed by the Department to RMC), contract invoices, and contract
deliverables.

We also reviewed documents obtained from RMC, the TACs, the ORFC, and the FCRR relating
to the RF program. The documentation acquired from RMC primarily pertained to guidance
given to the TACs, including National Center meeting minutes, correspondence between RMC
and the Department, the National Center Handbook, and the Client Contact Logs completed by
the TA providers. Our review of the handbook focused on the guidance provided by RMC for
the TA providers to use, while our focus on the logs pertained to the information the TA
providers provided to the states. We also reviewed guides developed by the National Center to
determine if the information included was balanced and did not appear to be biased toward any
reading product. The documents provided by the TACs were university employment contracts,
consulting agreements, and workshop and training presentations. Our review of the TAC
documentation focused on guidance given to the states. Our review of the ORFC and FCRR
documents involved each center’s process for reviewing reading programs, including reviewer
selection, program selection, review criteria, and reporting.

In addition, we interviewed officials from Success For All,25 the Department, RMC, staff and
consultants from the regional TACs, and staff from both the ORFC and the FCRR. We
judgmentally selected the officials we interviewed. The selections were based on the official’s
position, background, RF responsibilities, and whether or not they were identified in any RF
allegations. We interviewed 10-15 individuals from each regional TAC and related university
reading center.

We also interviewed SEA officials and we reviewed work performed by other components of the
OIG.26 The work included interviews of SEA officials from states that we knew had complaints



25
   Success For All is a nonprofit organization that develops, evaluates, and disseminates reform models for
preschool, elementary, and middle schools.
26
   The OIG Evaluations and Inspections component conducted a review of the RF program’s grant application
process. The final report, “The Reading First Program’s Grant Application Process," ED-OIG/I13F0017, was issued
in September 2006.
Final Report
ED-OIG/ A03F0022                                                                            Page 17 of 19
about the TA they received. We also coordinated and held briefings with GAO, and other OIG
regional offices27 on their RF work.

Additionally, we reviewed email correspondence of officials from the Department, RMC, and
the regional TACs.

We gained an understanding of RMC’s internal controls relating to conflict of interest policies
and procedures and found weaknesses as described in the finding.

We performed our audit fieldwork from August 2005 through July 2006, at the offices of
Success For All (August 2005), the Department of Education (July 2006), RMC (September
2005), the Universities of Oregon (January 2006), Texas (March 2006), and Florida State (April
2006). We held an exit conference with RMC officials on October 4, 2006.

We performed our audit in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.




27
  Chicago, “Wisconsin Department of Public Instruction’s Reading First Program,” ED-OIG/A05G0011, issued
October 20, 2006; New York, “Audit of New York State Education Department’s Reading First Program,” ED­
OIG/A02G0002, issued November 3, 2006; and Atlanta, “Review of the Georgia Reading First Program,” ED­
OIG/A04G0003, issued January 18, 2007.
Final Report
ED-OIG/ A03F0022                                                            Page 18 of 19

 Appendix 1: Technical Assistance Centers and States/Territories 

                           Serviced 


  TECHNICAL
  ASSISTANCE                    STATES AND TERRITORIES SERVICED
   CENTER

  Western TAC      Alaska, American Samoa, Arizona, Bureau of Indian Affairs, California,
                   Colorado, Hawaii, Idaho, Iowa, Minnesota, Montana, Nebraska, New
                   Mexico, Nevada, North Dakota, Oregon, South Dakota, Utah, Washington,
                   Wisconsin, Wyoming
  Central TAC      Alabama, Arkansas, Illinois, Indiana, Kansas, Kentucky, Louisiana,
                   Michigan, Mississippi, Missouri, Ohio, Oklahoma, Tennessee,
                   Texas, West Virginia
  Eastern TAC      Connecticut, Delaware, District of Columbia, Florida, Georgia, Maine,
                   Maryland, Massachusetts, New Hampshire, New Jersey, New York, North
                   Carolina, Pennsylvania, Puerto Rico, Rhode Island, South Carolina, U.S.
                   Virgin Islands, Vermont, Virginia
Final Report
ED-OIG/ A03F0022                                                              Page 19 of 19

                     Appendix 2: Product Relationships 


ENTITY     POSITION               ROLE                 AREA OF POTENTIAL COI
 RMC      Consultant       TA to states for         DIBELS Trainer
                           application
                           submission
Eastern   Director         -Wrote portion of      -Current publishing contract, negotiated
 TAC                       National Center        in Spring 2004, for reading intervention
                           proposal pertaining to materials with SRA/McGraw-Hill
                           the Eastern TAC        -Author of assessment instruments,
                           -Administration of     Comprehensive Test of Phonological
                           TAC                    Process, Test of Phonological Awareness
                                                  and Test of Word Reading Efficiency
Central   Former           -Wrote portion of      -Paid consultant with Voyager on grades
 TAC      Principal        National Center        K-3 prior to work with Central TAC
          Investigator     proposal pertaining to -Paid consultant with Voyager on grades
          (Director)       the Central TAC        4-8 while working with Central TAC
                           -Implemented the       -Reading series with Scott Foresman
                           TAC                    (scheduled for 2006 publishing)
                            - TA to states within -Developer of the 3-Tier Reading Model
                           Central Region
          Current Deputy   - TA to states in      -Data Evaluation Consultant for
          Director         Central Region         Houghton-Mifflin Co., August 2000­
                           -Assisted in the       2003
                           administration of      -Data Evaluation Consultant for Voyager,
                           TAC                    March 2000-2003
          Consultant      TA to the State of        Author of Instructional Materials
                          Texas related to LEA      published by McGraw-Hill, 1987-2001,
                          applications              including K-3 Reading Program in 2000
Western   Former Director -Wrote portion of         Published college texts on reading in
 TAC                      National Center           2003 and 2005 by Prentice Hall
                          proposal pertaining to
                          the Western TAC
                          -Administration of
                          TAC
          Current         Administration of         Published college texts on reading by
          Director        TAC                       Prentice Hall and math texts by
                                                    SRA/McGraw-Hill
          Consultant       Consultant to the        DIBELS co-creator
                           Western TAC related
                           to the implementation
                           of the TAC
          Consultant       Training Presenter    DIBELS Trainer
          Consultant       Training Presenter    DIBELS Trainer
          Consultant       Training Presenter    DIBELS Trainer
                              Attachment: RMC Comments

                            RMC Research Corporation          Phone: 603.422.8888, 800.258.0802
                            1000 Market Street, Building 2    Fax: 603.436.9166
                            Portsmouth, NH 03801              www.RMCResearchCorporation.com



 RESEARCH
February 12,2007


Mr. Bernard Tadley
Regional Inspector General for Audit
The Wanamaker Building
100 Penn Square East, Suite 502 .
Philadelphia, PA 19107

Dear Mr. Tadley:

RMC Research acknowledges receipt of the Inspector General's Draft Audit Report Control
Number ED-OIG/A03F0022, titled "RMC Research Corporation's Administration of the
Reading First Program Contracts."

RMC Research Corporation concurs in principle with the finding presented in this report. We
appreciate the opportunity the Office of the Inspector General has provided us to elaborate and
provide our perspective; describe the actions we have taken or plan to take; and to correct what
we believe are discrepancies, misunderstandings, or minor errors in statements in the draft report.

We would like to thank you and the audit team for its thorough work. RMC Research, its
subcontractors, and consultants were treated with respect at all levels and we genuinely
appreciate the efforts of all involved.

Thank you once again for the hard work of the audit team and please let me know if you have
any questions about our response.

Sincerely,



Everett Barnes, Jr.
President

Enclosure: Comments from RMC Research Corporation on Draft Audit Report




                                                 Page 1 of8
            Comments from RMC Research Corporation on Draft Audit Report

Following are specific comments and suggested edits on the Inspector General’s Draft Audit
Report titled “RMC Research Corporation’s Administration of the Reading First Program
Contracts.”

                                          Background

       • 	 On page 2 of 15, Background, in the first paragraph, line seven, we believe a more
           accurate and correct statement would be “…reliable screening, diagnostic, progress
           monitoring, and outcome assessments.”

       • 	 On page 2 of 15, Background, in the fourth paragraph, line two, our records show the
           official performance period for the National Center for Reading First Technical
           Assistance contract as September 30, 2003 through September 29, 2008.

       • 	 On page 3 of 15, Background, in the first full paragraph, line thirteen, we suggest
           replacing “FCRR” with the full name, Florida Center for Reading Research, in order
           to be consistent.

       • 	 On page 3 of 15, Background, in the last paragraph, line five, we believe the word
           “support” is a more accurate description of the intent of our technical assistance
           rather than “supplement.”

       • 	 On page 4 of 15, Background, in the first paragraph, line three, we believe you
           intended to say, “…when, and what kind of assistance was provided,” rather than
           “when, and what of kind assistance was provided.”

       • 	 On page 4 of 15, Background, in the first paragraph, beginning with line four, we
           believe readers might benefit from a slight reorganization of your sentences so they
           read, “…was a process of reviewing reading programs. These reviews were done
           only at the request of a state. The reviewer used the criteria for review and selection
           of a program that was indicated in a state’s approved RF plan. The results of the
           reviews were provided only to the requesting state. This process was only performed
           to a small degree; the Eastern TAC was requested to review nine reading programs
           (eight of which were supplemental or intervention), the Central TAC was requested to
           review a single reading program and the Western TAC was requested to review one
           reading program. In August, 2005 the Department directed RMC and the TACs to
           discontinue reviewing programs and to concentrate on assisting the states in
           implementing their Reading First programs.” Please note the addition of the review
           of one supplemental program by the Western TAC.


                                         Audit Results

RMC Research Corporation concurs in principle with the finding presented in this report. We
appreciate the opportunity the Office of the Inspector General has provided us to elaborate and

                                           Page 2 of 8
provide our perspective; describe the actions we have taken or plan to take; and to correct what
we believe are discrepancies, misunderstandings, or minor errors in statements in the draft report.
We have responded to each of the subheadings under this Finding independently.

Finding – RMC Did Not Adequately Address Conflict of Interest Issues:

Absence of the COI Clause in Subcontracts and Consulting Agreements.

Page 5 of 15. RMC Research acknowledges that it was remiss in not more explicitly
highlighting the required organizational COI clause in its subcontracts with the three universities
serving as subcontractors to the NCRFTA. RMC relied on language it had used historically in its
subcontracts, language that in over 35 years of providing technical assistance for the U.S.
Department of Education had never been challenged or questioned, and which stated that the
subcontractor was bound by the same provisions and requirements as the Prime Contractor.
RMC Research provided the Office of Grants and Contracts within each of the three
subcontractor universities with a complete copy of the Master Contract with USED which
included the organizational COI clause requirement. Each Office of Grants and Contracts
thoroughly examined the Master Contract and contacted RMC with questions and requests for
clarification or adjustment. RMC Research responded in writing to these questions and requests
concerning the provisions of the Master Contract, none of which had to do with the
organizational COI clause. That aside, RMC Research agrees with the Office of the Inspector
General that it was our responsibility under the terms of the contract to ensure that the
organizational COI clause requirement was explicitly stated in all subcontract and consultant
agreements so there would be no doubt or misunderstanding.

When this omission was pointed out to RMC by the OIG Audit Team during their first site visit,
RMC began immediate action, including:

       • 	 requesting examples of exemplar COI contract statements or preferred language;

       • 	 requesting examples of exemplar COI screening/review rubrics or criteria for
           determining actual/perceived COI bias or lack of objectivity;

       • 	 requesting examples of exemplar COI staff training packages or manuals;

       • 	 notification to all subcontractors and all staff assigned to the project, about the
           organizational COI clause requirement.

       • 	 amendment of all subcontracts to include the COI clause;

       • 	 an examination of the COI policies and practices being employed by the three
           subcontractors;

       • 	 training and in-depth discussion on COI for all staff; and

       • 	 securing staff and consultant signed interim COI Disclosure Statements.

Technical Assistance Providers Were Not Adequately Vetted for Bias and Impaired Objectivity
                                         Page 3 of 8
RMC Research continues to seek out sources of guidance or examples from private entities
conducting similar work as well as federal agencies, of definitions, procedures, and tools that
would be useful in more thoroughly vetting individual resumes to determine actual or perceived
conflict of interest, bias or impaired objectivity. As these become available RMC will
incorporate them into its vetting process.

RMC Research would like to point out that it was our understanding that the review and approval
(vetting) of all staff and consultants working on these contracts would be done by the U.S.
Department of Education. It was emphasized to us that no staff person or consultant could begin
work or charge to these contracts until their resumes had been reviewed and approved by USED.
RMC Research acknowledges that as the Prime Contractor it also had a responsibility to vet
resumes before passing them on to USED to protect the reputation and integrity of the Reading
First Program and of RMC. RMC Research agrees that in its vetting of staff and consultants it
erred on the side of emphasizing depth of knowledge, extensive experience, and nationally
recognized expertise in scientifically based reading research and Reading First program
requirements over concerns related to the appearance of conflict of interest, bias or lack of
objectivity.

RMC believes that some of the statements made on page 6 of 15 and 7 of 15 about current and
former TAC Directors may not be accurate or may need clarification. Specifically, it is RMC’s
understanding that the current Western TAC Director’s association with publishers has to do
with mathematics textbooks, a Spanish reading program (that was taken off the market in 2002)
and several high school and college texts. The Central TAC’s former Principal Investigator’s
consultancy to Voyager was for grades 4-8 (Reading First is a K-3 program) and that the reading
series being developed for Pearson Scott Foresman was not in publication.

RMC believes that all the information presented in this portion of the report about the activities
of the former/current TAC Directors was known to the U. S. Department of Education at the time
they awarded the contract and vetted and approved the resumes of staff and consultants. The U.
S. Department of Education never informed RMC Research about any specific concerns of
conflict of interest, bias, or lack of objectivity regarding any of these individuals. Had they done
so, RMC Research, as the Prime Contractor, would have worked with USED and with the
individuals and organizations involved to correct or mitigate the situation.

Page 7 of 15. In 2004, RMC Research was asked by USED to compile a list of all contracts and
consulting agreements that NCRFTA staff were currently involved in. This included
government and private sector agencies. RMC collected this information, informed USED that it
was available and was told to put it on file for future reference if needed.

From the beginning of these Reading First technical assistance contracts, RMC emphasized to its
staff, subcontractors, and consultants the need to follow the explicit requirements of the Reading
First legislation and the federal guidance for the implementation of the requirements of the
Reading First Program. RMC emphasized the need for impartiality, objectivity, and for strict
adherence to providing only assistance related to Reading First Program requirements and the
state Reading First application/plans. RMC and USED monitored for impartiality and
objectivity by reviewing materials, workshops, and products used to deliver technical assistance
as well as by observing professional development and technical assistance delivery.
                                            Page 4 of 8
Possible Inappropriate Promotion of an Assessment Instrument

Pages 7 & 8 of 15. RMC Research would like to point out that neither the Western state or
Eastern state referenced in this section ever brought this issue to the direct attention of the
Principal Investigator/Project Director of the NCRFTA. When the former Director of Reading
First for USED brought the complaint of the Western state to our attention, we acted upon it
immediately and no additional complaints were received. In examining the issues around this
complaint, RMC learned that the Western state’s Reading First application had been rejected by
the Independent Review Panel several times. In part, these rejections were based on an
unacceptable assessment plan. The technical assistance being provided may have been
interpreted by the client as “promoting or pushing” a particular assessment (DIBELS). The
Western state’s Reading First application was eventually approved without the DIBELS
assessment as part of the assessment plan. After approval of its state Reading First plan, RMC
understands that the Western state contacted USED and requested an amendment/modification to
its application that included substituting the DIBELS assessment for some of the assessments in
the approved plan. RMC believes this was done for all the reasons the consultant had been
trying to point out initially.

RMC was never contacted by the Eastern state or the former USED Reading First Director about
inappropriate advice being given by a Reading First consultant.

RMC agrees with the OIG that TA providers have to always be cognizant that the advice they
provide and the way in which it is provided never gives the client the impression that they are
promoting a specific assessment. In delivering technical assistance on Reading First applications
and implementation, RMC and its subcontractors and consultants have provided assistance
services to every eligible state, commonwealth, and territory. RMC and its partners have
responded to thousands of requests for technical assistance. These are the only two complaints
we have ever been informed about where the client perceived they were being pressured.

Page 8 of 15. RMC Research acknowledges that there is no federal requirement for vetting for
bias or lack of objectivity. Indeed, when we have asked for guidance or examples of how to
conduct such vetting, no clear answers have been provided. RMC Research has been providing
technical assistance to states, districts, and schools in the implementation of federal education
legislation for more than 35 years. In conducting this work, and building our professional
reputation, RMC was diligent in emphasizing the highest ethical standards and avoiding the
inference of conflict, bias, or lack of objectivity. RMC had no formal COI policies and
procedures in place because RMC does not have relationships with publishers, we do not
develop or publish texts, assessments or programs and we do not collect royalties.

As a result of this audit and the recommendations of the OIG, RMC has taken steps to establish
COI policies and procedures and engaged staff in training and dialogue about COI issues.

Page 8 of 15, third paragraph. While we agree that none of RMC’s subcontractors had COI
policies and procedures pertaining to publisher and reading product affiliations or authorships in
place, the university where the Western TAC is based does have a longstanding COI policy in
place that deals with compensation and outside employment, similar in purpose to those at the
universities where the Eastern and Central TAC’s are based.
                                           Page 5 of 8
Page 8 of 15, last paragraph. As stated, RMC was aware of the issue of conflict of interest as
were its partners and USED. COI was discussed in project meetings on a number of occasions.
RMC requested COI information from the employees of the three TACs at the request of USED.
When we examined what had been provided, we felt there was no overt COI. RMC offered the
information we collected to USED and we were told to keep it on file.

During the meeting in 2004 referenced in the report, RMC raised the issue of COI or the
appearance of COI, given the large number of staff and consultants engaged by the NCRFTA.
RMC suggested the idea of creating “advisories” or question and answer guides focused on COI,
bias and objectivity issues that could be used by personnel working for the NCRFTA as a
resource. After discussions with our partners during that meeting it was concluded that COI
issues were often too nuanced, complex, or contextually based to lend themselves to an
“advisory.” We agreed that when actual or perceived issues related to COI arose they would be
brought to RMC as discussed and resolved by RMC, its partners, and USED.

Recommendations

RMC Research concurs with and accepts all the recommendations presented by the Office of the
Inspector General on page 9 of 15 of the report. As stated earlier, RMC Research started to take
action on a number of these items immediately following the first site visit by the OIG Audit
Team over a year ago.

On February 8, 2007, RMC Research sent a letter to the Assistant Secretary for the Office of
Elementary and Secondary Education requesting a meeting that would include the Assistant
Secretary, the Reading First Program Officer, the Contracting Specialist for the Reading First
contract, the President of RMC Research, and the Project Director of the NCRFTA, to discuss
the issues raised in this report and its recommendations and to develop a plan and timeline for
addressing them.

RMC Research would like clarification on a portion of Recommendation 1.1 which states,
“Develop and implement formal COI policies and procedures for use in the current Reading First
contract and any future Department contracts…” Is the reference to “future Department
contracts” restricted to Reading First only or is the recommendation suggesting that the Assistant
Secretary and the U. S. Department of Education develop COI policies and procedures for all
federal technical assistance contractors such as Regional Labs, Comprehensive Centers, R &D
Centers, Clearinghouses, the What Works Clearinghouse, etc.? Given the extreme importance of
the COI issues raised in this audit RMC would hope that the recommendation would extend
beyond Reading First.

As a point of clarification, we are not sure what the reference to the “Chief Financial Officer”
means. RMC’s Chief Financial Officer does not develop corporate policy. However, if the
USED feels his participation would be beneficial, RMC would be happy to include him in the
meeting. If this is a reference to the “Chief Financial Officer” in the Department of Education,
we do not know what that would be.

In response to Recommendation 1.3, RMC would like to point out that it has developed an
interim “COI certification form” which has been signed by all staff from RMC, all staff from its
                                           Page 6 of 8
partner subcontractors and consultants currently working on the NCRFTA. This COI
certification form is interim while RMC works with USED on the precise COI language it would
like used.

Other Matters

Perception of an Approved Department List of Reading Programs

Page 9 of 15, first paragraph. The NCRFTA and the regional TACs were explicitly prohibited
by the U. S. Department of Education’s Reading First Office from creating their own websites.

Page 9 of 15, second paragraph. The NCRFTA did not “refer SEAs seeking guidance on the
selection of a reading program to the list of ORFC and FCRR program reviews.” SEAs were
referred to these sites by NCRFTA to see the process, protocols, and rubrics that were used since
each state Reading First application had to address how they would implement a rigorous review
process. SEAs were also referred to those sites, as well as other rigorous reviews, so they could
see the information that had been generated from the reviews. At no time did NCRFTA refer
state clients to those sites so they could “select” a reading program.

Page 10 of 15, first paragraph. NCRFTA consistently pointed out to states that requested
assistance in developing their review process for Reading First that the processes represented on
the ORFC, FCRR sites and from other sources were only examples of how such reviews might
be rigorously conducted and that they were specific to their respective state requirements. SEAs
and others may have chosen to ignore disclaimers but the disclaimers were always present.

Page 10 of 15, first paragraph. RMC Research agrees with the OIG Audit Team that program
reviews available from a number of sources may have given some SEAs the misconception that a
list of approved reading programs existed. In any situation when such lists, created by states
with characteristics similar to other states or conducted by nationally recognized experts exist,
states or other clients who feel they lack the capacity, expertise or time to go through similar
processes independently will use the information that is available. In fact, states regularly
request opportunities at federally sponsored conferences, not just Reading First, to share
practices, strategies, information or resources that will help them effectively and efficiently
implement the requirements of federal legislation.

RMC Research will instruct TA providers to exercise “extreme caution” (rather than “refrain
from”) in referring one state to another state’s work. Given the frequency of this type of request
and the importance with which it is viewed by many states, sharing among states is a critical part
of technical assistance. RMC Research will monitor this type of technical assistance more
carefully in the future.

Page 10 of 15, second paragraph. NCRFTA and the regional TACs were prohibited from
creating websites of their own. The webpages referred to in this paragraph were not developed
or maintained by the TACs. The university centers that housed each TAC included a short
description of its respective TAC on the university or center website. This was not a TAC
webpage but rather a page on a university website that included information about the TAC. The
NCRFTA website and webpages are found as part of the official Department of Education
Reading First website at www.ReadingFirstSupport.us.
                                           Page 7 of 8
Unsigned and Missing Consultant Agreements

RMC Research accepts responsibility for these errors and has tightened up its procedures for
securing and filing these records.

Appendix 1: Technical Assistance Centers and States/Territories Serviced

While the official time frame for this audit was April 1, 2002 through September 30, 2004, it
may help to avoid future confusion to note that responsibility for TA services for Iowa was
transferred from the Western TAC to the Central TAC on March 25, 2005. In addition,
responsibility for providing TA services to the state of Wisconsin was transferred from the
Western TAC to the Central TAC on November 14, 2005.

Appendix 2: Product Relationships

Several items in this appendix have already been previously addressed. There are a few more for
which we would like to provide clarification.

The roles of the Directors of each TAC were the same so for consistency, we suggest changing
the Central TAC Former Principal Investigator (Director) role to “Administration of TAC”
(rather than “Implemented the TAC”) to be consistent with the other regions. In addition, both
the Eastern and Central Directors also wrote portions of the national Center proposal pertaining
to their respective regions.

Additionally, we would like to clarify that for the Central TAC, the person referenced as
“Current Deputy Director” was the data manager from 2002 – September 2005 and the Deputy
Director from September 2005 through September 2006.




                                           Page 8 of 8
